IN THE SUPREME COURT OF THE UNITED STATES

No. 20-5279
WILLIAM DALE WOODEN,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF WORD COUNT

Pursuant to Rule 33. l(h) of the Rules of this Court, I certify that the
accompanying Brief of FAMM as Amicus Curiae in Support of Petitioner, which
was prepared using Century Schoolbook 12-point typeface, contains 7,511 words,
excluding the parts of the document that are exempted by Rule 33. l(d). This
certificate was prepared in reliance on the word-count function of the wordprocessing system (Microsoft Office Word 2013) used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 10, 2021.

G!:JQ:!awfta

Counsel of Record for Amicus
FAMM

